TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                           Improved Internal Controls and
                         Contact Recording Are Needed to
                        Ensure the Accuracy and Reliability
                        of the Taxpayer Assistance Centers
                            Quality Measurement System



                                         December 2005

                              Reference Number: 2006-40-022




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                          December 6, 2005


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Improved Internal Controls and Contact
                             Recording Are Needed to Ensure the Accuracy and Reliability of the
                             Taxpayer Assistance Centers Quality Measurement System
                             (Audit # 200440045)

 This report presents the results of our review to determine whether the Embedded Quality
 measurement system is efficiently and effectively improving business results for the Internal
 Revenue Service (IRS) Wage and Investment Division Field Assistance Office.

 Synopsis
 Each year, millions of taxpayers visit IRS Taxpayer Assistance Centers (TAC) seeking
 assistance in understanding the tax law and meeting their tax obligations. According to the IRS,
 the TACs served approximately 7.3 million taxpayers during Fiscal Year 2004. The Wage and
 Investment Division Field Assistance Office has overall responsibility for over 400 TACs and
 2,200 IRS employees (called assistors) that provide taxpayers with face-to-face assistance.
 To measure its customer service, the IRS uses a quality measurement system called the
 Embedded Quality, which links employee performance to organizational results related to the
 quality of customer service. Beginning in Fiscal Year 2004, the Field Assistance Office began
 implementing the Embedded Quality Business Integration (EQBI). The EQBI is an innovative
 approach to quality control for face-to-face interactions between assistors and taxpayers. No
 other Federal Government agencies we contacted have developed a comprehensive quality
 measurement system that measures face-to-face assistance like the one the IRS is implementing.
 The new EQBI integrates an IRS-wide, customer-focused, standardized measurement system
 with centralized data collection tools and current technology, such as Contact Recording and
                          Improved Internal Controls and Contact Recording
                       Are Needed to Ensure the Accuracy and Reliability of the
                      Taxpayer Assistance Centers Quality Measurement System


Queuing Management.1 It will help address many concerns raised by the Office of Management
and Budget, the Government Accountability Office, and the Treasury Inspector General for Tax
Administration on the accuracy of tax law answers and the need for a quality measurement
system with which to set goals and measure progress toward achieving those goals.
The Field Assistance Office began implementing the Embedded Quality component of the EQBI
in October 2003 and began collecting data in April 2004. Currently, the Embedded Quality
requires TAC group managers to physically observe a statistical sample of assistors’ interactions
with taxpayers that visit the TACs for help with a tax law question, an account issue, or the
preparation of a tax return. Group managers document the results of their observational reviews
on a Data Collection Instrument that is entered into an electronic database, the Embedded
Quality Review System (EQRS).2
However, the EQRS data are not representative of the population of assistors, and internal
controls are not sufficient to ensure the reliability of data. For Fiscal Year 2004, group
managers:
•   Did not complete observational reviews for 168 (11 percent) of 1,550 assistors required to be
    included in the sampling plan (or the statistical sample).
•   Included from 9 to 26 observational reviews in the sampling plan for 455 (29 percent) of
    1,550 assistors that should not have been included. These observations were in addition to
    those required by the sampling plan.
In addition, managerial observational reviews introduce bias, inhibiting the accurate assessment
of employee performance. To monitor the performance of assistors, managers currently must be
physically present when assistors help taxpayers. This physical presence establishes an artificial
situation for both the employee and the taxpayer and inhibits the accurate assessment of
performance in day-to-day contacts.
The EQRS data are also inconsistent and contain errors. We tested a stratified statistical sample
of 310 of the 11,839 Data Collection Instruments entered into the EQRS from April 19 through
September 30, 2004, and found:
•   Thirty-eight of 228 Data Collection Instruments tested contained errors that affected
    Customer Accuracy. Projecting the mean error rate to the total population,



1
  Contact Recording captures the audio portion of the employee/customer interaction, synchronized with computer
screen activity, for replay and quality review. Queuing Management directs taxpayers to the right employee, based
on the tax issue.
2
  The Data Collection Instrument is a checklist designed to assist group managers in rating and documenting
interactions. It is used to both provide feedback to the assistors and assist the group managers when entering the
data into the EQRS.
                                                                                                                     2
                           Improved Internal Controls and Contact Recording
                        Are Needed to Ensure the Accuracy and Reliability of the
                       Taxpayer Assistance Centers Quality Measurement System


    2,500 (21.12 percent) of 11,839 Data Collection Instruments in the Field Assistance
    Office’s EQRS contain errors that affect Customer Accuracy.3
•   Most (306 of 310) Data Collection Instruments contained errors that affected Regulatory,
    Procedural, Professionalism, and/or Timeliness quality measures. Projecting the mean error
    rate to the total population, 11,725 (99.04 percent) of 11,839 Data Collection Instruments in
    the EQRS contain errors that affect these 4 quality measures.4
The Embedded Quality is a new process for the Field Assistance Office. It is in the first years of
implementation and it is reasonable that there would be a considerable learning curve.
Specifically, sufficient procedures and internal controls were not developed to ensure the
sampling plan was followed and only required observational reviews were included in the
statistical sample. In addition, insufficient resources were allocated to the Quality Assurance
function staff. Procedures and guidelines had not been developed to validate and monitor the
results, and Quality Assurance function staffing was not sufficient to evaluate risks and the
effectiveness of internal controls.
The Field Assistance Office is moving in the right direction with the implementation of the
Embedded Quality. Current projections call for Contact Recording to be fully implemented in
Fiscal Year 2008. We believe the Embedded Quality with Contact Recording, when
appropriately working and managed, can provide a consistent methodology for all managers to
evaluate performance, establish baselines, and identify root causes of defects in employee
interactions with taxpayers.

Recommendations
The Commissioner, Wage and Investment Division, should limit the use of the Embedded
Quality data until the data are validated as statistically representative of the population of
assistors. In addition, the Commissioner should establish, document, and implement a system of
internal controls to ensure the sampling plan is followed and the results are statistically
representative of the population of assistors. This includes establishing a centralized process to
monitor and ensure group managers are following the sampling plan methodology and only

3
  Only 228 of the 310 statistically sampled Data Collection Instruments had sufficient information to determine
Customer Accuracy. No percentage error rate is shown here because it is not a simple calculation of 38/228 due to
the stratified statistical sample. Instead, the mean error rate, which represents the weighted average for all 3 product
lines combined, is shown as it applies to the projected total errors across the population (2,500/11,839). See
Appendix IV for a breakdown of our calculation of 2,500 total errors affecting Customer Accuracy.
4
  No percentage error rate is shown here because it is not a simple calculation of 306/310 due to the stratified
statistical sample. Instead, the mean error rate, which represents the weighted average for all 3 product lines
combined, is shown as it applies to the projected total errors across the population (11,725/11,839). See
Appendix IV for a breakdown of our calculation of 11,725 total errors affecting Regulatory, Procedural,
Professionalism, and/or Timeliness quality measures.
                                                                                                                       3
                       Improved Internal Controls and Contact Recording
                    Are Needed to Ensure the Accuracy and Reliability of the
                   Taxpayer Assistance Centers Quality Measurement System


employees required to be observed are included in the sample. Group managers should receive
training on the importance of the Data Collection Instrument, not only to document the
assistor/taxpayer interaction but also to substantiate the rating for use in subsequent reviews,
reconciliations, and validations. Finally, a system of internal controls should be implemented
and documented to ensure the EQRS data are valid and reliable and have been checked and
tested for significant errors. This includes establishing written guidelines that clearly establish
roles and responsibilities, a centralized process to conduct periodic statistical reviews and
reconciliations, and the means by which to provide documentation on the effectiveness of the
internal controls.

Response
IRS management agreed with our recommendations and immediately took corrective actions.
The IRS made a decision to not use EQRS data as a quality measure for Fiscal Years 2005 and
2006. The Fiscal Year 2006 goal will be to baseline EQRS quality scores and improve the
integrity of the EQRS data.
The IRS established an internal control system with guidelines that include formally established
Embedded Quality Roles and Responsibilities, sampling plan requirements for the number of
reviews per employee and time periods for input and sharing of review results, a requirement for
Territory managers to perform weekly monitoring of the group managers, and a requirement for
Area Offices to submit monthly variance reports listing assistors that did not require monthly
reviews and why. The guidelines also include a requirement for the headquarters quality staff to
validate group manager coding and to share results with field offices, along with a standardized
remarks section for Data Collection Instruments to permit verification by a third party and to
permit Territory managers and quality staff to use them to provide feedback for managers.
Lastly, the IRS delivered additional EQRS training and created a revised job aid to clarify
attribute definitions, communicate EQRS changes, and reemphasize the importance of writing
substantive remarks and improvement strategies. Management’s complete response to the draft
report is included as Appendix VII.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Scott A. Macfarlane, Acting Assistant Inspector General for Audit (Wage and Investment
Income Programs), at (925) 210-7027.




                                                                                                      4
                             Improved Internal Controls and Contact Recording
                          Are Needed to Ensure the Accuracy and Reliability of the
                         Taxpayer Assistance Centers Quality Measurement System




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 6
          The Field Assistance Office Is Implementing an Innovative
          Quality Measurement System .......................................................................Page 6
          Embedded Quality Review System Data May Not Be Representative
          of the Population of Assistors .......................................................................Page 7
                    Recommendations 1 and 2: ..............................................Page 10

          Internal Controls Are Not Sufficient to Ensure the Reliability
          of the Embedded Quality Review System Data............................................Page 11
                    Recommendations 3 and 4: ..............................................Page 18


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 19
          Appendix II – Major Contributors to This Report ........................................Page 21
          Appendix III – Report Distribution List .......................................................Page 22
          Appendix IV – Outcome Measures...............................................................Page 23
          Appendix V – The Embedded Quality Measurement System With
          Contact Recording ........................................................................................Page 27
          Appendix VI – Embedded Quality and Attributes........................................Page 28
          Appendix VII – Management’s Response to the Draft Report.....................Page 31
                          Improved Internal Controls and Contact Recording
                       Are Needed to Ensure the Accuracy and Reliability of the
                      Taxpayer Assistance Centers Quality Measurement System




                                            Background

The Internal Revenue Service (IRS) estimated that it would take individual taxpayers from
3 hours and 46 minutes to prepare the simplest Tax Year 2004 tax return to over 27 hours to
complete a more complex tax return with schedules.1 Mistakes and misinformation can easily
contribute to noncompliance. The IRS recognizes that providing quality customer service is the
first step in achieving taxpayer compliance.
The IRS provides taxpayers the option of obtaining face-to-face assistance at over 400 Taxpayer
Assistance Centers (TAC). The IRS
suggests that taxpayers visit the TACs      Figure 1: Percentages of Various Services
when they have complex tax issues,           Provided at Taxpayer Assistance Centers
need to resolve tax problems relating to
their tax accounts, have questions about
how the tax law applies to their
individual income tax returns, or feel
more comfortable talking with someone
in person. Approximately 2,200 IRS
employees (called assistors) work in the
TACs providing taxpayers personal,
face-to-face assistance with tax matters
that includes interpreting tax laws and
regulations, preparing certain individual
tax returns, resolving inquiries on
taxpayer accounts, accepting payments,
and providing various other services
designed to minimize the burden on
taxpayers in satisfying their tax
obligations.                              Source: IRS Field Assistance Office.

According to the IRS, the TACs served
approximately 7.3 million taxpayers during Fiscal Year 2004. Figure 1 shows a breakdown of
the types of services provided by assistors in the TACs during Fiscal Year 2004.2


1
  Included in the estimate are the United States Individual Income Tax Return (Form 1040), Itemized Deductions
(Schedule A), Interest and Ordinary Dividends (Schedule B), Capital Gains and Losses (Schedule D), and Earned
Income Credit (Schedule EIC).
2
  Percentages in Figure 1will not equal 100 due to rounding. “Other” services include date stamping tax returns,
providing general information such as addresses of IRS offices, and directing taxpayers to other agencies.
                                                                                                           Page 1
                          Improved Internal Controls and Contact Recording
                       Are Needed to Ensure the Accuracy and Reliability of the
                      Taxpayer Assistance Centers Quality Measurement System


The Government Performance and Results Act of 1993 was established to improve the
confidence of the American people in the capability of the Federal Government by holding
Federal Government agencies accountable for achieving program results.3 This involved the
initiation of program performance reform by setting program goals, measuring program
performance against those goals, and reporting publicly on the progress.
The Office of Management and Budget recently rated the IRS’ taxpayer service as part of the
Fiscal Year 2006 Budget process, citing the program’s purpose is to reduce taxpayer burden by
providing professional and courteous service to customers. Included in the program rating were
face-to-face assistance, toll-free telephone assistance, correspondence, and the IRS web site,
IRS.gov. To complete the assessment, the Office of Management and Budget used the Program
Assessment Rating Tool, which is a systematic method of assessing program performance across
the Federal Government and a diagnostic tool with the main objective to improve performance in
agency programs and link performance to budget decisions. The Office of Management and
Budget gave taxpayer service an adequate rating, stating that the IRS continues to have trouble
with the accuracy of answers, needs long-term goals, and needs to improve its ability to
determine the costs of its taxpayer service activities.
To measure its customer service, the IRS uses a quality
measurement system called the Embedded Quality, which                            Figure 2: The EQBI
links employee performance to organizational results related
to the quality of customer service. Beginning in Fiscal
Year 2004, the Field Assistance Office, the IRS office                                        Contact
                                                                                              Recording
responsible for overseeing the TACs, began implementing
the Embedded Quality Business Integration (EQBI). The
EQBI includes:                                                                   Embedded     EQBI         Queuing
                                                                                 Quality                   Management
•   Embedded Quality that uses standardized review
    criteria to make contact evaluations easier and more                                    E-Performance
                                                                                            Based Individual
    consistent by linking criteria to Critical Job Elements                                 Training
    and business measures.
•   Contact Recording that captures the audio portion of                    Source: IRS Field Assistance Office.
    the employee/customer interaction, synchronized with
    computer screen activity, for replay and quality review.
•   Queuing Management (Q-MATIC) that efficiently directs taxpayers to the right employee,
    based on tax issue. Currently, Queuing Management is available in most TACs and will be
    available in all TACs by the end of Fiscal Year 2006.



3
 Pub. L. No. 103-62, 107 Stat. 285 (codified as amended in scattered sections of 5 U.S.C., 31 U.S.C., and
39 U.S.C.).
                                                                                                                Page 2
                            Improved Internal Controls and Contact Recording
                         Are Needed to Ensure the Accuracy and Reliability of the
                        Taxpayer Assistance Centers Quality Measurement System



•     Electronic Performance Based Individual Training that identifies employee training needs
      and delivers targeted training. This portion of the EQBI is in its early stages and has not
      been implemented.
See Appendix V for a flowchart of the Embedded Quality measurement system.
The Field Assistance Office began implementing the Embedded Quality component of the EQBI
in October 2003 and began collecting data in April 2004. The Embedded Quality requires group
managers to observe assistors’ contacts with taxpayers and measure performance against
predetermined standards. Figure 3 shows the flow of the Embedded Quality process without
Contact Recording.
                              Figure 3: The Embedded Quality Process




Source: Excerpt from the Field Assistance Office Presentation, “Embedded Quality TIGTA4 Briefing,”
Atlanta, Georgia, April 6, 2004.

To accomplish this, group managers are to observe a statistical sample of assistors’ interactions
with taxpayers that visit the TACs for help with a tax law question, an account issue, or the
preparation of a tax return. The three types of assistance are stratified into Embedded Quality
product lines. The Embedded Quality sampling plan is designed to provide statistically valid
results. Since managers cannot observe 100 percent of assistor interactions with taxpayers, a
statistical sample allows for a reliable estimate, with a certain mathematical degree of

4
    Treasury Inspector General for Tax Administration.
                                                                                                     Page 3
                          Improved Internal Controls and Contact Recording
                       Are Needed to Ensure the Accuracy and Reliability of the
                      Taxpayer Assistance Centers Quality Measurement System


confidence, that the Field Assistance Office can draw conclusions from based on observing only
a portion of the total population of interactions between assistors and taxpayers.
Managers document the results of their observational reviews on a Data Collection Instrument,
which is a checklist designed to assist group managers in rating and documenting interactions. It
is used to both provide feedback to the assistors and assist the group managers when entering the
data into the Embedded Quality database known as the Embedded Quality Review System
(EQRS).
The Data Collection Instrument contains over 100 evaluative attributes5 mapped to assistors’
Critical Job Elements and divided into 5 quality measures:
    •    Customer Accuracy – giving the taxpayer the correct answer with the correct resolution.
    •    Regulatory Accuracy – adhering to statutory/regulatory process requirements when
         making determinations on taxpayer accounts.
    •    Procedural Accuracy – adhering to nonstatutory/nonregulatory internal process
         requirements.
    •    Professionalism – promoting a positive image of the IRS by using effective
         communication techniques.
    •    Timeliness – resolving an issue in the most efficient manner with proper workload
         management and time utilization techniques.
See Appendix VI for details of the Embedded Quality and its attributes.
Data from the EQRS are used to report Customer Accuracy, Professionalism, and Timeliness
quality measures to the IRS Commissioner as part of the IRS’ balanced measures.6 The
Customer Accuracy measure is also reported externally to IRS stakeholders (e.g., Congress and
the Government Accountability Office (GAO)) and as part of the reporting requirement of the
Government Performance and Results Act. The Regulatory Accuracy and Procedural Accuracy
quality measures are reported internally to IRS management to identify trends and training
opportunities.
Field Assistance Office Quality Assurance function staff members visit the TACs and observe
group managers conducting Embedded Quality observational reviews. The Quality Assurance
function staff also prepares a Data Collection Instrument for each taxpayer contact they observe.
The Quality Assurance function results are input to the National Quality Review System, which
produces quality review reports designed to identify trends that may indicate problem areas,
training needs, and opportunities for process improvements.

5
  Attributes identify specific aspects of a contact that need to be considered when measuring the quality of customer
service.
6
  Three measures (employee satisfaction, customer satisfaction, and business results) the IRS uses to measure
organizational and employee performance.
                                                                                                             Page 4
                      Improved Internal Controls and Contact Recording
                   Are Needed to Ensure the Accuracy and Reliability of the
                  Taxpayer Assistance Centers Quality Measurement System


This review was performed in the Field Assistance Office of the Wage and Investment Division
in Atlanta, Georgia, during the period June 2004 through May 2005. This audit focused only on
the Embedded Quality component of the EQBI. The audit was conducted in accordance with
Government Auditing Standards. Detailed information on our audit objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




                                                                                       Page 5
                        Improved Internal Controls and Contact Recording
                     Are Needed to Ensure the Accuracy and Reliability of the
                    Taxpayer Assistance Centers Quality Measurement System




                                  Results of Review

The Field Assistance Office Is Implementing an Innovative Quality
Measurement System
The EQBI is an innovative approach to quality control for face-to-face interactions between
assistors and taxpayers. No other Federal Government agencies we contacted have developed a
comprehensive quality measurement system that measures face-to-face assistance like the one
the IRS is implementing. The new EQBI integrates an IRS-wide, customer-focused,
standardized measurement system with centralized data collection tools and current technology,
such as Contact Recording and Queuing Management. It will help address many concerns raised
by the Office of Management and Budget, the GAO, and the TIGTA on the accuracy of tax law
answers and the need for a quality measurement system with which to set goals and measure
progress toward achieving those goals.
Prior to Fiscal Year 2002, the IRS did not have an effective process in place to measure the
progress made to improve customer service at the TACs. In October 2001, the IRS hired an
outside contractor to make anonymous visits to the TACs to assess the quality of service. In
October 2002, the IRS implemented a quality review program for the TACs using anonymous
visits by IRS employees. The results from these two approaches were not reliable and did not
                                       provide a statistical representation of the taxpayers that
                                       visit the TACs.
                                        Consequently, the Field Assistance Office began
                                        developing the EQBI. Beginning in Fiscal Year 2004, the
                                        Field Assistance Office:
                                        •   Established a training program to train managers and
                                            educate employees on the benefits of the Embedded
                                            Quality.
    TAC group managers completed        •   Defined roles and responsibilities for each level of
     11,839 observational reviews           management and staff participating in the Embedded
     within the first 6 months of the       Quality process. This included Area Office Directors,
           Embedded Quality
             implementation.                Territory Managers, and group managers. The Field
                                            Assistance Office is divided into 32 Territories in
                                            5 geographic Area Offices.
•    Conducted an Embedded Quality pilot from October through December 2003 with
     14 group managers documenting observational reviews of over 140 front-line assistors.
                                                                                             Page 6
                       Improved Internal Controls and Contact Recording
                    Are Needed to Ensure the Accuracy and Reliability of the
                   Taxpayer Assistance Centers Quality Measurement System


    Approximately 400 reviews were captured during the pilot, resulting in overall accuracy
    scores of 90 percent and above.
•   Rolled out the system IRS-wide and completed 11,839 observational reviews from
    April 19, 2004 (the date the Embedded Quality was implemented), through
    September 30, 2004 (the end of Fiscal Year 2004).
The IRS reported assistors commented that the Embedded Quality helped them identify changes
needed to better their performance. Managers stated the EQRS’ powerful database and the
template it generates lessened their burden by making it easier to evaluate performance and
provide specific, targeted feedback to employees.

Embedded Quality Review System Data May Not Be Representative of
the Population of Assistors
From an analysis of EQRS data, we determined that managers did not always follow the
sampling plan. Internal controls were not in place to ensure the required observational reviews
were completed and only those required reviews were entered into the EQRS. For Fiscal
Year 2004, group managers:
    •   Did not complete observational reviews for 168 (11 percent) of 1,550 assistors required
        to be included in the sampling plan (or the statistical sample).
    •   Included from 9 to 26 observational reviews in the sampling plan for 455 (29 percent) of
        1,550 assistors that should not have been included. These observations were in addition
        to those required by the sampling plan.
Figure 4 presents the number of assistors and the number of observational reviews each received
in Fiscal Year 2004.




                                                                                          Page 7
                                               Improved Internal Controls and Contact Recording
                                            Are Needed to Ensure the Accuracy and Reliability of the
                                           Taxpayer Assistance Centers Quality Measurement System



    Figure 4: Fiscal Year 2004 Number of Assistors per Number of Observations

                           800


                                                                    686
                           700
                                                                                      In Fiscal Year 2004, Group
                                                                                      Managers were required to
                           600
                                                                                      complete 8 observations
                                                                                      per employee.
     Number of Assistors




                           500



                           400



                           300


                                                                          194
                           200

                                                                                123
                                      80
                           100
                                 59        55   54   51   57   57                     49
                                                                                           29
                                                                                                17   7   9    5    3    5   4   1    0    0    2   1   1    1
                             0
                                 1    2    3    4    5    6    7     8     9    10    11   12   13 14    15   16   17   18 19   20   21   22   23 24   25   26
                                                                                 Number of Observations

    Source: The EQRS.

The sampling plan was refined for Fiscal Year 2005 to provide additional guidance to ensure the
integrity of the EQRS results. Despite these refinements, an analysis of the EQRS for a limited
period of Fiscal Year 2005, from October 1, 2004, through January 31, 2005, showed:
•   Twenty-one (13 percent) of 157 assistors did not receive the required minimum number of
    observational reviews.
•   Fifty (32 percent) of 157 assistors had more than 1 observational review included in the
    sample for just the month of October 2004. Figure 5 presents information on the selection of
    one operational review per month per employee.
This happened because the program was new and sufficient procedures and internal controls had
not been developed to ensure the sampling plan was followed and that only required
observational reviews were included in the statistical sample. Figure 5 presents a comparison of
the Fiscal Year 2004 and Fiscal Year 2005 Sampling Plans.



                                                                                                                                                             Page 8
                        Improved Internal Controls and Contact Recording
                     Are Needed to Ensure the Accuracy and Reliability of the
                    Taxpayer Assistance Centers Quality Measurement System



        Figure 5: Comparison of Fiscal Years 2004 and 2005 Sampling Plans

           Fiscal Year 2004 Sampling Plan                 Fiscal Year 2005 Sampling Plan

     Group managers were required to conduct a      Group managers were required to select the
     minimum of one observational review per        first observational review per employee per
     month for each employee, plus two              month to be included in the statistical sample,
     additional reviews, for a total of eight       for a total of 12 per year.
     reviews by the end of September 2004.

     Observational reviews were to be entered       The required observational reviews (those to
     into the EQRS.                                 be included in the statistical sample) were to
                                                    be entered into the EQRS with the designation
                                                    code “NR” for National Review.

     Group managers could also observe assistors    While group managers were encouraged to
     more than required in the sampling plan (for   complete more than the required number of
     example, because they identified               reviews per employee, only the first
     performance issues).                           observational review per employee per month
                                                    was to be coded NR.

     No instructions were provided to               Only observational reviews coded NR were
     differentiate between the observational        to be used to calculate and report quality
     reviews selected for the statistical sample    measures.
     and those that were not.

   Source: The IRS Field Assistance Office.

In addition, insufficient resources were allocated to the Quality Assurance function staff.
Staffing was not sufficient to evaluate risks and the effectiveness of the internal controls of the
Embedded Quality process. Also, procedures and guidelines had not been developed to validate
and monitor the group managers’ adherence to the sampling plan.
For example, during our initial validation of the EQRS Fiscal Year 2004 data, we determined
that 413 assistors were not included in the sampling plan and did not receive the required
8 observational reviews. We provided the list to Field Assistance Office management. They
could not determine from the list which assistors were required to be included in the sample.
There was no consolidated schedule to validate which assistors were required to be included in
the sample and how many observational reviews were required for each.
The Field Assistance Office forwarded our list to its five Area Offices with instructions to
explain why assistors were not observed and included in the sample. After obtaining responses
from all Area Offices, management explained and we determined that 245 of the 413 assistors
were not required to have all 8 observational reviews because during the time period tested they

                                                                                                 Page 9
                       Improved Internal Controls and Contact Recording
                    Are Needed to Ensure the Accuracy and Reliability of the
                   Taxpayer Assistance Centers Quality Measurement System


were, among other reasons, in a nonwork status, attending training, or assigned to collection
work. However, the EQRS did not reflect this.
The Field Assistance Office had instructed Territory managers and Area Office analysts to
monitor and ensure group managers follow the sampling plan and complete the required number
of observational reviews. The Field Assistance Office relied on them to follow procedures and
did not do any independent verification.
An effective sampling plan requires objectivity and a means for establishing sample sizes and
appraising sample results mathematically. It should not be subject to potential bias. Not
following prescribed procedures produces a systematic bias that could compromise the
randomness of the sample.
In addition, effective internal controls are necessary to ensure actions are taken to address areas
of risk. Internal controls should be an integral part of any system. Controls should be designed
to help ensure completeness, accuracy, authorization, and validity of all transactions. Internal
control systems need to be monitored–through ongoing monitoring activities, separate
evaluations, or a combination of the two.
When we shared our results with Field Assistance Office management, they established
procedures that require each Area Office to submit monthly variance reports listing assistors that
did not require monthly observational reviews and the reasons why. In addition, some group
managers were removed because they did not conduct the required observational reviews.

Recommendations
The Commissioner, Wage and Investment Division, should:
Recommendation 1: Limit the use of the Embedded Quality data until the data are validated
as statistically representative of the population of assistors. The data should not be used to report
balanced measures or to make significant business decisions.
       Management’s Response: The IRS made a decision to not use EQRS data as a
       quality measure for Fiscal Years 2005 and 2006. The Fiscal Year 2006 goal will be to
       baseline EQRS quality scores and improve the integrity of the EQRS data. The IRS will
       use our anonymous shopping scores as the quality measure for Fiscal Year 2006.
Recommendation 2: Establish, document, and implement a system of internal controls to
ensure the sampling plan is followed and the results are statistically representative of the
population of assistors. This includes establishing a centralized process to monitor and ensure
group managers are following the sampling plan methodology and only employees required to be
observed are included in the sample.
       Management’s Response: The IRS revised guidelines to include roles and
       responsibilities and sampling plan requirements for the number of reviews per employee

                                                                                             Page 10
                           Improved Internal Controls and Contact Recording
                        Are Needed to Ensure the Accuracy and Reliability of the
                       Taxpayer Assistance Centers Quality Measurement System


         and time periods for input and sharing of review results. Territory managers will perform
         weekly monitoring of the group managers, and Area Offices are required to submit
         monthly variance reports listing assistors that did not require monthly reviews and why.

Internal Controls Are Not Sufficient to Ensure the Reliability of the
Embedded Quality Review System Data
The EQRS is not providing an accurate measure of the quality of service provided in the TACs.
The data are biased, inconsistent, and contain errors. From April 19 through
September 30, 2004, 11,839 Data Collection Instruments were entered into the EQRS. We tested
a stratified statistical sample of 3147 Data Collection Instruments from across all product lines.
For Fiscal Year 2004:
•   Thirty-eight of 228 Data Collection Instruments (22 of 148 Tax Law, 12 of 49 Accounts, and
    4 of 31 Tax Return Preparation) tested contained errors that affected Customer Accuracy.
    Projecting the mean error rate to the total population, 2,500 (21.12 percent) of 11,839 Data
    Collection Instruments in the EQRS contain errors that affect Customer Accuracy.8
•   Most (306 of 310) Data Collection Instruments (157 of 160 Tax Law, 118 of 119 Accounts,
    and all 31 Tax Return Preparation) contained errors that affected Regulatory, Procedural,
    Professionalism, and/or Timeliness quality measures. Projecting the mean error rate to the
    total population, 11,725 (99.04 percent) of 11,839 Data Collection Instruments in the EQRS
    contain errors that affect these 4 quality measures.9
To ensure the Embedded Quality data are valid and reliable, the data must be checked or tested
for significant errors. Periodic statistical reviews, reconciliations, or comparisons of data should
be performed. In addition, monitoring the effectiveness of internal controls should occur in the
normal course of business. Internal controls need to be clearly documented, and the
documentation should be readily available for examination.




7
  Only 310 of 314 Data Collection Instruments in our statistical sample were available for review.
8
  Only 228 of the 310 statistically sampled Data Collection Instruments had sufficient information to determine
Customer Accuracy. No percentage error rate is shown here because it is not a simple calculation of 38/228 due to
the stratified statistical sample. Instead, the mean error rate, which represents the weighted average for all 3 product
lines combined, is shown as it applies to the projected total errors across the population (2,500/11,839). See
Appendix IV for a breakdown of our calculation of 2,500 total errors affecting Customer Accuracy.
9
  No percentage error rate is shown here because it is not a simple calculation of 306/310 due to the stratified
statistical sample. Instead, the mean error rate, which represents the weighted average for all 3 product lines
combined, is shown as it applies to the projected total errors across the population (11,725/11,839). See
Appendix IV for a breakdown of our calculation of 11,725 total errors affecting Regulatory, Procedural,
Professionalism, and/or Timeliness quality measures.
                                                                                                              Page 11
                         Improved Internal Controls and Contact Recording
                      Are Needed to Ensure the Accuracy and Reliability of the
                     Taxpayer Assistance Centers Quality Measurement System



Managerial observational reviews introduce bias, inhibiting the accurate
assessment of employee performance
To monitor the performance of assistors, managers currently must be physically present when
assistors help taxpayers. This physical presence establishes an artificial situation for both the
employee and the taxpayer and inhibits the accurate assessment of performance in day-to-day
contacts. The GAO, in a November 2004 report, stated that observing taxpayer/employee
interaction “. . . could yield biased data, because assistors will know they are being observed,
which could influence their behavior. Consequently, Embedded Quality data gathered by direct
observation may not be representative of true performance.”10
During a TIGTA audit of the TAC 2005 Filing Season,11 auditors visited a judgmental sample of
50 TACs posing as taxpayers and asking assistors tax law questions. Using the Embedded
Quality method to score their responses resulted in a 39 percent accuracy rate compared to the
accuracy rate of 92 percent using the results from managerial observational reviews during the
2005 Filing Season.
The Field Assistance Office acknowledges that observational reviews could introduce bias into
the results. This bias would be eliminated once it implements Contact Recording, which is
designed to remove the manager’s physical presence and allow him or her to select a recorded
contact based on a statistically valid sampling plan. In May and June 2005, the Field Assistance
Office conducted a 60-day pilot of Contact Recording in 7 TACs. Results are being evaluated,
and a second pilot is scheduled during the 2006 Filing Season. Initial implementation is
tentatively scheduled to begin in Fiscal Year 2006, with full implementation by
Fiscal Year 2008. We plan to begin a review of Contact Recording in late Fiscal Year 2006.

Inconsistent use of attributes resulted in inaccurate quality rates
Group managers did not consistently score attributes, nor did they always follow the Embedded
Quality Job Aid12 when preparing the Data Collection Instruments. This resulted in the Field
Assistance Office incorrectly calculating the rates used to report the five quality measures.




10
   Tax Administration: IRS Improved Performance in the 2004 Filing Season, But Better Data on the Quality of
Some Services Are Needed (GAO-05-67, dated November 2004).
11
   Customer Accuracy at Taxpayer Assistance Centers Showed Little Improvement During the 2005 Filing Season
(Reference Number 2005-40-146, dated September 2005). The filing season is the period from January through
mid-April when most individual income tax returns are filed.
12
   The Embedded Quality Job Aid provides operational definitions for the use of attributes.
                                                                                                     Page 12
                          Improved Internal Controls and Contact Recording
                       Are Needed to Ensure the Accuracy and Reliability of the
                      Taxpayer Assistance Centers Quality Measurement System


Customer Accuracy Quality Measure
Thirty-eight of the 228 Data Collection Instruments tested contained errors that affected
Customer Accuracy. Figure 6 shows the Customer Accuracy goals and reported rates for the IRS
for Fiscal Year 2004, compared to the results of our statistical sample.
              Figure 6: Fiscal Year 2004 Comparison of Embedded Quality
                 Accuracy Rates to TIGTA Statistical Sampling Results

                                     IRS               IRS             TIGTA
                                   Customer          Reported         Calculated        Overstated
                                   Accuracy          Customer         Customer          Customer
             Product Line           Goals            Accuracy         Accuracy          Accuracy

          Accounts                    87%              96%               76%                20%
          Tax Law                     80%              94%               85%                 9%
          Tax Return
          Preparation                99%13             96%               87%                 9%
         Source: TIGTA statistical sample of 228 Data Collection Instruments selected from the period
         April 19 through September 31, 2004.

Regulatory, Procedural, Professionalism, and Timeliness Quality Measures
Most Data Collection Instruments tested (306 of 310) contained errors that affected Regulatory,
Procedural, Professionalism, and/or Timeliness quality measures.
     •   For 272 of 310 Data Collection Instruments, managers did not score attributes that should
         have been scored. For example, the Data Collection Instrument showed the interaction
         involved the Accounts product line, but the group manager did not score all appropriate
         or required attributes for the Accounts product line (e.g., he or she did not score the
         attribute to indicate the employee properly verified the taxpayer’s identification before
         providing the tax information).
     •   For 177 of 310 Data Collection Instruments, group managers scored attributes that should
         not have been scored. For example, a group manager scored attributes relating to a tax
         law issue when the Data Collection Instrument showed that a tax law was not discussed
         with the taxpayer.
     •   For 44 of 310 Data Collection Instruments, managers used the incorrect product line to
         document the observational review. For example, group managers documented that the
         taxpayer visited the TAC to ask a tax law question but, after reviewing the Data

13
  The Tax Return Preparation IRS Customer Accuracy Goal is based on the percentage of returns that contain math
errors, missing schedules, and erroneous credits claimed for all tax returns prepared in the TACs.
                                                                                                        Page 13
                      Improved Internal Controls and Contact Recording
                   Are Needed to Ensure the Accuracy and Reliability of the
                  Taxpayer Assistance Centers Quality Measurement System


       Collection Instrument, it was apparent the taxpayer actually visited the TAC with an
       account question.
   •   For 21 of 310 Data Collection Instruments, group managers incorrectly scored attributes
       with a “yes” when they should have been scored with a “no,” or vice versa. For example,
       group managers noted that assistors correctly applied the tax law when responding to
       taxpayers’ tax law questions. However, the Data Collection Instrument showed assistors
       did not correctly apply the tax law.
The complexity of the tax law and the application of over 100 attributes contributed significantly
to inconsistencies and errors. The EQRS is a complex system and is in its first years of
implementation in the Field Assistance Office. The Quality Assurance function staffing has not
been sufficient to identify and develop an effective internal control system that would include
monitoring and periodic statistical assessments of the results.
In addition, the Field Assistance Office modeled its Embedded Quality on the Toll-Free
Telephone Assistance Program Embedded Quality. Where applicable, attributes were modified,
and in some instances created, to reflect specific procedures or services provided in the TACs.
However, in some cases, the Toll-Free Embedded Quality attribute definitions did not apply,
were insufficient, or did not fit with the services provided in the TACs. This created some
confusion, and a Field Assistance Office quality improvement team is currently addressing this
issue.
The accuracy of the Data Collection Instruments should improve as the group managers’
learning curves decrease and as solutions from the quality improvement team’s various strategies
are implemented and measured. In addition, the Field Assistance Office revised the Data
Collection Instrument and Embedded Quality Job Aid and is adding a coding consistency goal to
Area Office Directors’ performance standards.

The Data Collection Instruments do not provide sufficient information to validate
the results of the observational reviews
For 209 of 310 Data Collection Instruments (69 of 160 Tax Law, 111 of 119 Accounts, and 29 of
31 Tax Return Preparation) tested, the Data Collection Instruments do not provide sufficient
information for independent reviewers to determine what actually took place during the
interaction between the assistor and the taxpayer. Group managers are not required to document
in the narrative on the Data Collection Instrument all interactions between the assistors and the
taxpayers. Comments are generally required only to support when the assistors deviate from
attributes or procedures. Projecting the mean error rate to the total population,
9,799 (82.77 percent) of 11,839 Data Collection Instruments in the Field Assistance Office’s




                                                                                          Page 14
                           Improved Internal Controls and Contact Recording
                        Are Needed to Ensure the Accuracy and Reliability of the
                       Taxpayer Assistance Centers Quality Measurement System


EQRS do not contain sufficient information for an independent reviewer to determine what took
place between the assistor and the taxpayer.14
We shared our results with the Field Assistance Office Quality Assurance function staff, who
verified the coding inconsistencies and documentation issue. They stated that, although the
group managers had received training on how to score the attributes, they did not have specific
training and guidelines on how to document the observational reviews.
Until this review, the Data Collection Instruments have not been used to substantiate the results
of the observational reviews. The Data Collection Instrument was not developed to provide
substantive documentation to support the rating of the attributes and the observational review. It
was designed more to prompt group managers on the attributes and to help them provide
effective feedback to the assistor rather than to substantiate the rating. However, at this time, the
Data Collection Instrument is the only means to substantiate and support the rating of the
observational review.
As part of the Embedded Quality internal control process, the Field Assistance Office uses dual
monitoring to ensure coding consistency. Quality Assurance function reviewers visit the TACs
to monitor group managers during their observational reviews of assistors. Both the reviewers
and the group managers complete a Data Collection Instrument for each observational review.
After the observational reviews, the reviewers discuss the observational results with the group
managers.
In Fiscal Year 2005, the Field Assistance Office issued new standardized guidelines that require
the Data Collection Instrument to include written documentation to support the Customer
Accuracy quality measure rate. This will facilitate an independent validation of the results for
this measure to ensure the reliability of the data.
However, procedures do not require Data Collection Instruments to contain information that
identifies taxpayers that visit the TACs for account inquiries and tax return preparation. Field
Assistance Office management stated that most group managers do not use the field and cited a
concern with having taxpayer information on the Data Collection Instrument in case it was used
in an employee grievance. Without taxpayer identification information, an independent reviewer
cannot research to determine if the assistor provided accurate account information or accurately
prepared the tax return. Once Contact Recording is implemented, the recording will provide this
information.




14
   No percentage error rate is shown here because it is not a simple calculation of 209/310 due to the stratified
statistical sample. Instead, the mean error rate, which represents the weighted average for all 3 product lines
combined, is shown as it applies to the projected total errors across the population (9,799/11,839).
                                                                                                              Page 15
                      Improved Internal Controls and Contact Recording
                   Are Needed to Ensure the Accuracy and Reliability of the
                  Taxpayer Assistance Centers Quality Measurement System



Timely input of the Data Collection Instruments is not always assured
For 51 of 310 Data Collection Instruments (31 of 160 Tax Law, 16 of 119 Accounts, and 4 of
31 Tax Return Preparation) sampled, the Data Collection Instruments were not timely entered
into the EQRS. The time to input ranged from 4 to 71 days, or an average of 14 days, after the
date of the observational reviews. Projecting the mean error rate to the total population,
1,732 (14.63 percent) of 11,839 Data Collection Instruments in the Field Assistance Office’s
EQRS were not timely entered.
The Field Assistance Office did not have guidelines in Fiscal Year 2004 requiring Data
Collection Instruments to be entered within a certain number of days. However, beginning in
Fiscal Year 2005, group managers are required to input all completed Data Collection
Instruments into the EQRS within 3 business days of the observational review. Therefore, we
considered input to be timely using the Fiscal Year 2005 requirement of 3 business days.
Although the 3-day requirement was in effect in Fiscal Year 2005, limited testing of 1 Field
Assistance Office Area Office showed that, during Fiscal Year 2005, 53 (9 percent) of 579 Data
Collection Instruments were not input within 3 business days of the observational review.
Untimely recordation of observational reviews increases the risk that the data are unreliable.
GAO Standards for Internal Control in the Federal Government state, “Transactions should be
promptly recorded to maintain their relevance and value to management in controlling operations
and making decisions. In addition, control activities help to ensure that all transactions are
completely and accurately recorded.” Further, the Office of Management and Budget
Circular A-123, Management Accountability and Control, states transactions should be promptly
recorded, properly classified, and accounted for in order to prepare timely and reliable reports.

Changes and deletions to the Embedded Quality Review System are not
monitored or analyzed
Of 11,839 Data Collection Instruments input into the EQRS, 423 (4 percent) had been edited.
The group managers edited the Data Collection Instruments because they initially had input
incorrect data or had to update the data with new information received after initial input. In
addition, 400 (3 percent) Data Collection Instruments had been deleted from the EQRS.
The Field Assistance Office stated that the Embedded Quality implementation team did not
identify deleted and changed data as a key component in the reliability of data in the EQRS.
Procedures require Territory Managers and Area Office analysts to monitor the Change and
Delete reports; however, neither report was being reviewed. In addition, the Quality Assurance
staff had not reviewed either report because there were no procedures requiring a review.
Risks to the integrity of the EQRS increase when changes and deletions are not reviewed or
analyzed. For Fiscal Year 2005, the Field Assistance Office had not updated its guidelines to
include requirements that the Quality Assurance function staff review and monitor Change and
Delete reports.

                                                                                          Page 16
                      Improved Internal Controls and Contact Recording
                   Are Needed to Ensure the Accuracy and Reliability of the
                  Taxpayer Assistance Centers Quality Measurement System



Resource limitations limit the effectiveness of the Field Assistance Office Quality
Assurance function
For 12 (32 percent) of 37 observational reviews tested in the National Quality Review System,
Quality Assurance function reviewers scored the Customer Accuracy attribute differently from
group managers. The managers input the results of their observational reviews in the EQRS, and
the resulting Customer Accuracy rate was 97 percent. The Quality Assurance function reviewers
input their results in the National Quality Review System, and the resulting Customer Accuracy
rate was 79 percent. The Quality Assurance function reviewers do not have authority to override
the managers’ decisions.
We could not determine the reasons for the differences, but we believe they include bias when an
assistor’s immediate manager conducts the observational review, inconsistent scoring from
different levels of knowledge and experience with the Embedded Quality and its attributes, or
training issues. Nevertheless, the Field Assistance Office has not had procedures in place or the
resources to conduct analyses to identify such errors or trends and develop solutions.
Although the Field Assistance Office uses the National Quality Review System and has Quality
Assurance function reviewers participating in observational reviews, it has not established a
permanent independent Quality Assurance function staff. The Field Assistance Office Quality
Assurance function staff was comprised of experienced employees detailed from the field with
no authority to override group manager decisions. A lack of permanent staff and procedures
prevents the establishment of a systematic process to monitor the Embedded Quality process and
validate the data and results.
The lack of a formal review process contributed to the unreliability of quality measures because
errors were not identified and corrective actions were not taken. During Fiscal Year 2005, the
Field Assistance Office has addressed these issues by starting projects that are focusing on
problems such as coding consistency. For example, the Field Assistance Office developed a new
training module and job aids to assist group managers. In addition, it has a quality improvement
team studying the three specialized product lines: Tax Law, Accounts, and Tax Return
Preparation. The team is analyzing the 100 attributes in an effort to reduce the number of
attributes, thereby alleviating confusion and helping consistency. The team will observe group
managers’ adherence to established coding procedures, identify areas of variation, make changes,
and monitor the changes.

Conclusion
The Field Assistance Office is moving in the right direction with the implementation of the
Embedded Quality and efforts to improve the statistical validity and reliability of Embedded
Quality data. Current projections call for Contact Recording to be fully implemented in
Fiscal Year 2008. We believe the Embedded Quality with Contact Recording, when
appropriately working and managed, can provide a consistent methodology for all managers to

                                                                                         Page 17
                       Improved Internal Controls and Contact Recording
                    Are Needed to Ensure the Accuracy and Reliability of the
                   Taxpayer Assistance Centers Quality Measurement System


evaluate performance, establish baselines, and identify root causes of defects in employee
interactions with taxpayers.
The Embedded Quality system is a new process for the Field Assistance Office. It is in the first
years of implementation and it is reasonable that there would be a considerable learning curve.
However, we believe the lack of a strong internal control system to monitor and evaluate the
effectiveness of processes and procedures has resulted in an over/understatement of reported
quality measures. As a result, the Field Assistance Office should not use Fiscal Years 2004 or
2005 data to report quality measures or to establish baselines to measure future improvement.

Recommendations
The Commissioner, Wage and Investment Division, should:
Recommendation 3: Ensure group managers receive training on the importance of the
Data Collection Instrument, not only to document the assistor/taxpayer interaction but also to
substantiate the rating for use in subsequent reviews, reconciliations, and validations.
       Management’s Response: The IRS issued guidelines for Data Collection
       Instruments that standardize the remarks sections to permit verification by a third party
       and to permit Territory managers and quality staff to use them to provide feedback for
       managers. It also delivered additional EQRS training and created a revised job aid to
       clarify attribute definitions, communicate EQRS changes, and reemphasize the
       importance of writing substantive remarks and improvement strategies.
Recommendation 4: Establish, document, and implement a system of internal controls to
ensure the EQRS data are valid and reliable and have been checked and tested for significant
errors. This includes establishing written guidelines that clearly establish roles and
responsibilities, a centralized process to conduct periodic statistical reviews and reconciliations,
and the means by which to provide documentation on the effectiveness of the internal controls.
       Management’s Response: The IRS established an internal control system that
       includes:
       •   Formally established Embedded Quality Roles and Responsibilities.
       •   A sampling plan requirement for managerial review of at least one contact per
           employee per month and to provide employee feedback.
       •   A requirement for Territory managers to perform weekly monitoring of group
           managers.
       •   A requirement for the headquarters quality staff to validate group manager coding and
           to share results with field offices.
       .



                                                                                             Page 18
                             Improved Internal Controls and Contact Recording
                          Are Needed to Ensure the Accuracy and Reliability of the
                         Taxpayer Assistance Centers Quality Measurement System



                                                                                               Appendix I

            Detailed Objective, Scope, and Methodology

Our overall objective was to determine whether the Embedded Quality measurement system is
efficiently and effectively improving business results for the Wage and Investment Division
Field Assistance Office. To accomplish our objective, we:
I.         Determined the purpose of the Embedded Quality, its role in the Internal Revenue
           Service Strategy and Program Plan, and its balanced measures.
II.        Determined if the Embedded Quality sampling plan will provide statistically valid quality
           measures.
           A. Obtained and reviewed a copy of the Embedded Quality sampling plan.
           B. Discussed the process the Field Assistance Office used to develop the Embedded
              Quality sampling plan.
           C. Consulted with the Treasury Inspector General for Tax Administration statistician to
              determine if the plan is statistically reliable and valid.
           D. Determined why the Field Assistance Office Embedded Quality sampling plan is not
              statistically valid and identified the potential effect on internal and external
              stakeholders.
III.       Determined if group managers are following the sampling plan.
           A. Determined the number of completed observational reviews per employee for
              Fiscal Year 2004 (April 19 – September 30, 2004).
           B. Randomly selected one of five Area Offices to determine the number of completed
              observational reviews per employee for Fiscal Year 2005 (October 1 –
              December 31, 2005).1
           C. Compared the number of completed observational reviews to the required number of
              observational reviews according to the sampling plan.
           D. Determined why group managers were not following the sampling plan and identified
              the potential effect on internal and external stakeholders.




1
    Random sampling was used because we did not intend to project the results for this test.
                                                                                                   Page 19
                          Improved Internal Controls and Contact Recording
                       Are Needed to Ensure the Accuracy and Reliability of the
                      Taxpayer Assistance Centers Quality Measurement System


IV.     Evaluated the reliability of data captured in the Embedded Quality Review System
        (EQRS).
        A. Selected from the EQRS a stratified statistical sample of 3142 Data Collection
           Instruments3 from a population of all 11,839 completed in Fiscal Year 2004
           (April 19 – September 30, 2004). We stratified the population by Embedded Quality
           product line;4 this resulted in 2,488 Tax Law, 7,970 Accounts, and 1,381 Tax Return
           Preparation Data Collection Instruments. We used a random number program to
           select a statistical sample of 162 Tax Law, 121 Accounts, and 31 Tax Return
           Preparation Data Collection Instruments. We based our sample size on a 90 percent
           confidence and an expected error rate of 20 percent for Tax Law, 13 percent for
           Accounts, and 3 percent for Tax Return Preparation product lines. The precision was
           ± 5 percent.
        B. Randomly selected one of five Area Offices to evaluate if the Data Collection
           Instruments were timely input into the EQRS for Fiscal Year 2005 (October 1, 2005,
           through December 31, 2005).5
        C. Obtained and reviewed Quality Review Defect Reports showing the differences
           between the Quality Review Database version 2 Data Collection Instrument and the
           EQRS Data Collection Instrument. Also, we reviewed all 37 Data Collection
           Instruments in the Quality Review Database version 2 for the same time period in
           Fiscal Year 2004. These Data Collection Instruments were the results of the Field
           Assistance Office Quality Assurance function staff observing the managers during
           their observational reviews.
        D. Obtained EQRS reports to determine the volume of edited and deleted Data
           Collection Instruments during the review period.
        E. Determined why the database was not reliable and identified the potential effect on
           internal and external stakeholders.
V.      Contacted other Federal Government agencies (i.e., the Social Security Administration,
        the Department of Veterans Affairs, and the Department of Housing and Urban
        Development) with field offices that provide assistance to the public to determine how
        they measure quality.



2
  Only 310 of 314 Data Collection Instruments in our statistical sample were available for review.
3
  Group managers use a Data Collection Instrument to capture the results of their observational reviews of
employees’ interactions with taxpayers that visit Taxpayer Assistance Centers.
4
  A product line is a term for the type of work assistors perform when taxpayers visit Taxpayer Assistance Centers
for face-to-face assistance.
5
  Random sampling was used because we did not intend to project the results for this test.
                                                                                                           Page 20
                     Improved Internal Controls and Contact Recording
                  Are Needed to Ensure the Accuracy and Reliability of the
                 Taxpayer Assistance Centers Quality Measurement System



                                                                              Appendix II

                 Major Contributors to This Report

Scott A. Macfarlane, Acting Assistant Inspector General for Audit (Wage and Investment
Income Programs)
Augusta Cook, Director
Frank Jones, Audit Manager
Tanya Boone, Lead Auditor
Deborah Drain, Lead Auditor
Jackie Forbus, Senior Auditor
Jerome Antoine, Auditor
Jean Bell, Auditor
Jerry Douglas, Auditor
Kathy Henderson, Auditor
Patricia Jackson, Auditor
Sylvia Sloan-Copeland, Auditor
Geraldine Vaughn, Auditor




                                                                                     Page 21
                     Improved Internal Controls and Contact Recording
                  Are Needed to Ensure the Accuracy and Reliability of the
                 Taxpayer Assistance Centers Quality Measurement System



                                                                             Appendix III

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Director, Customer Assistance, Relationships, and Education, Wage and Investment Division
SE:W:CAR
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Acting Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Director, Field Assistance, Wage and Investment Division SE:W:CAR:FA
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: Acting Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                     Page 22
                          Improved Internal Controls and Contact Recording
                       Are Needed to Ensure the Accuracy and Reliability of the
                      Taxpayer Assistance Centers Quality Measurement System



                                                                                                 Appendix IV

                                     Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to the Congress.

Type and Value of Outcome Measure:

•   Reliability of Information – Actual; 623 assistors received the incorrect number of
    observational reviews required by the sampling plan for the Embedded Quality Review
    System (EQRS) (see page 7).
For Fiscal Year 2004, group managers did not always follow the sampling plan that required
eight observational reviews to be conducted for each assistor and entered into the EQRS. As a
result, managers:
    •    Did not complete observational reviews for 168 (11 percent) of 1,550 assistors required
         to be included in the sampling plan (or the statistical sample).
    •    Included from 9 to 26 observational reviews in the sampling plan for 455 (29 percent) of
         1,550 assistors that should not have been included.

Methodology Used to Measure the Reported Benefit:

We sorted all of the Data Collection Instruments in the EQRS by location and employee name.1
We counted the number of observational reviews and determined how many employees received
the required eight and how many received fewer or more than the required eight observational
reviews for the period.




1
  The Data Collection Instrument is a checklist designed to assist group managers in rating and documenting
interactions. It is used to both provide feedback to the assistors and assist the group managers when entering the
data into the EQRS.
                                                                                                            Page 23
                           Improved Internal Controls and Contact Recording
                        Are Needed to Ensure the Accuracy and Reliability of the
                       Taxpayer Assistance Centers Quality Measurement System



Type and Value of Outcome Measure:

•   Reliability of Information – Actual; 2,500 and 11,725 EQRS records affected (see page 11).
For the Customer Accuracy Quality Measure, group managers incorrectly scored Data Collection
Instruments in the EQRS for each of the Embedded Quality product lines2 (Tax Law, Accounts,
and Tax Return Preparation). As a result, we project the EQRS contained:
    •    370 Tax Law product line Data Collection Instruments with errors.
    •    1,952 Accounts product line Data Collection Instruments with errors.
    •    178 Tax Return Preparation product line Data Collection Instruments with errors.
For the Procedural, Regulatory, Professionalism, and Timeliness Quality Measures, group
managers incorrectly or insufficiently scored Data Collection Instruments in the EQRS. As a
result, we project the EQRS contained:
    •    2,442 Tax Law product line Data Collection Instruments with errors.
    •    7,903 Accounts product line Data Collection Instruments with errors.
    •    1,380 Tax Return Preparation product line Data Collection Instruments with errors.

Methodology Used to Measure the Reported Benefit:

We reviewed and compared how group managers scored each attribute to the required
instructions listed in the Embedded Quality Job Aid 3 and internal manuals and to information
obtained during discussions with Field Assistance Office staff. For each product line, we
identified the number of erroneous Data Collection Instruments and calculated an error rate4 for
the Customer Accuracy, Procedural, Regulatory, Professionalism, and Timeliness quality
measures. We calculated error rates by dividing the number of Data Collection Instruments with
errors by the total number in the sample. Also, we calculated the stratified mean error rate to
project the errors found in the sample across the total population.
For the Customer Accuracy Quality Measure, we projected 2,500 Customer Accuracy errors in
the EQRS from our review of 2285 Data Collection Instruments. The EQRS uses only one
attribute to score Customer Accuracy. Specifically:


2
  A product line is a term for the type of work assistors perform when taxpayers visit Taxpayer Assistance Centers
for face-to-face assistance.
3
  The Embedded Quality Job Aid provides operational definitions for how attributes may be used.
4
  An error rate is an estimate of the number of errors that exist in a population. The error rates could not be rounded
when reporting projected results from stratified samples.
5
  Only 228 of the 310 statistically sampled Data Collection Instruments had sufficient information to determine
Customer Accuracy.
                                                                                                              Page 24
                      Improved Internal Controls and Contact Recording
                   Are Needed to Ensure the Accuracy and Reliability of the
                  Taxpayer Assistance Centers Quality Measurement System



370 Tax Law product line Data Collection Instruments with errors:
o   Percentage of Tax Law Data Collection Instruments in the EQRS (2,488/11,839) = .2102.
o   The Tax Law product line sample error rate = (22/148) = .1486.
o   The Tax Law product line stratified mean error rate = .2102 x .1486 = .03124.
o   The projected Tax Law product line errors in the EQRS = .03124 x 11,839 = 370.
1,952 Accounts product line Data Collection Instruments with errors:
o   Percentage of Accounts Data Collection Instruments in the EQRS (7,970/11,839) = .6732.
o   The Accounts product line sample error rate = (12/49) = .2449.
o   The Accounts product line stratified mean error rate = .6732 x .2449 = .16487.
o   The projected Accounts product line errors in the EQRS = .16487 x 11,839 = 1,952.
178 Tax Return Preparation product line Data Collection Instruments with errors:
o Percentage of Tax Return Preparation Data Collection Instruments in the EQRS
  (1,381/11,839) = .1166.
o The Tax Return Preparation product line sample error rate = (4/31) = .1290.
o The Tax Return Preparation product line stratified mean error rate =
  .1166 x .1290 = .01504.
o The projected Tax Return Preparation product line errors in the EQRS =
  .01504 x 11,839 = 178.
For the Procedural, Regulatory, Professionalism, and Timeliness Quality Measures, we projected
11,725 errors in the EQRS from our review of 306 Data Collection Instruments. The EQRS uses
multiple attributes to calculate these four measures. Specifically:
2,442 Tax Law product line Data Collection Instruments with errors:
o   Percentage of Tax Law Data Collection Instruments in the EQRS (2,488/11,839) = .2102.
o   The Tax Law product line sample error rate = (157/160) = .9813.
o   The Tax Law product line stratified mean error rate = .2102 x .9813 = .20627.
o   The projected Tax Law product line errors in the EQRS = .20627 x 11,839 = 2,442.
7,903 Accounts product line Data Collection Instruments with errors:
o   Percentage of Accounts Data Collection Instruments in the EQRS (7,970/11,839) = .6732.
o   The Accounts product line sample error rate = (118/119) = .9916.
o   The Accounts product line stratified mean error rate = .6732 x .9916 = .66754.
o   The projected Accounts product line errors in the EQRS = .66754 x 11,839 = 7,903.




                                                                                      Page 25
                      Improved Internal Controls and Contact Recording
                   Are Needed to Ensure the Accuracy and Reliability of the
                  Taxpayer Assistance Centers Quality Measurement System



1,380 Tax Return Preparation product line Data Collection Instruments with errors:
o Percentage of Tax Return Preparation Data Collection Instruments in the EQRS
  (1,381/11,839) = .1166.
o The Tax Return Preparation product line sample error rate = (31/31) = 1.00.
o The Tax Return Preparation product line stratified mean error rate = .1166 x 1.00 = .11660.
o The projected Tax Return Preparation product line errors in the EQRS = .11660 x 11,839 =
  1,380 (rounded down from 1,381).




                                                                                       Page 26
                            Improved Internal Controls and Contact Recording
                         Are Needed to Ensure the Accuracy and Reliability of the
                        Taxpayer Assistance Centers Quality Measurement System



                                                                                            Appendix V

           The Embedded Quality Measurement System
                   With Contact Recording

The Embedded Quality measurement system with Contact Recording (CR), shown below,
captures the audio portion of the employee/customer interaction, synchronized with computer
screen activity, for replay and quality review for the group managers to measure performance
against predetermined standards.




Source: Excerpt from the Field Assistance Office Presentation, “Embedded Quality TIGTA1 Briefing,”
Atlanta, Georgia, April 6, 2004. EQRS = Embedded Quality Review System.




1
    Treasury Inspector General for Tax Administration.
                                                                                                     Page 27
                          Improved Internal Controls and Contact Recording
                       Are Needed to Ensure the Accuracy and Reliability of the
                      Taxpayer Assistance Centers Quality Measurement System



                                                                                                 Appendix VI

                      Embedded Quality and Attributes

In October 2003, the Internal Revenue Service (IRS) Field Assistance Office began
implementing the Embedded Quality component of the Embedded Quality Business Integration.
It began collecting data in April 2004. The Embedded Quality requires group managers to
observe assistors’ contacts with taxpayers and measure performance against predetermined
standards.
The group managers document the results of their observational reviews on a Data Collection
Instrument.1 The Data Collection Instrument contains over 100 evaluative attributes identified
with the reasons taxpayers visit Taxpayer Assistance Centers (TAC), whether for tax law,
accounts, or tax return preparation assistance. All attributes are mapped to assistors’ Critical Job
Elements used to evaluate their performance.
The evaluative attributes used regardless of the reason the taxpayer visits a TAC are professional
greeting, employee identification, identification of the taxpayer’s issue, and deciding whether the
assistor can address the taxpayer’s issue based on training or should transfer the issue to a
designated area. Other evaluative attributes that are specific to the reason a taxpayer visits a
TAC include those in Chart 1.




1
  Group managers use a Data Collection Instrument to capture the results of their observational reviews of assistors’
interactions with taxpayers that visit Taxpayer Assistance Centers.
                                                                                                            Page 28
                            Improved Internal Controls and Contact Recording
                         Are Needed to Ensure the Accuracy and Reliability of the
                        Taxpayer Assistance Centers Quality Measurement System



                  Chart 1: Assistance-Specific Embedded Quality Attributes

                                                                                            Tax Return
       Tax Law Assistance                        Accounts Assistance                   Preparation Assistance
  Apparent use of guides to provide        Disclosure met (i.e., determined that   Disclosure met (i.e., determined that
  correct response to taxpayer             taxpayer is authorized to have tax      taxpayer is authorized to have tax
  question.                                information).                           information).
  Complete use of guides to provide        Verified photo identification.          Verified photo identification.
  correct response to taxpayer
  question.
  Complete response given to               Conducted complete research on          Verified taxpayer had all return
  taxpayer according to the guides.        account-related computer systems.       preparation documents.
  Interpreted/applied tax law              Verified full compliance to determine   Verified taxpayer met Field
  correctly.                               if taxpayer is compliant with all tax   Assistance Office tax return
                                           obligations.                            preparation guidelines.
  Obtained/determined tax law facts.       Determined taxpayer’s ability to pay    Used tax return preparation forms,
                                           if taxes owed.                          schedules, and worksheets.
  Appropriate procedural action taken      Determined enforcement actions          Updated Taxpayer Identification
  (e.g., did assistor provide taxpayer a   needed (e.g., filing a lien).           Number, name, address, filing status,
  publication at the end of the visit).                                            and filing requirements on computer
                                                                                   systems.
  Provided taxpayer with correct and       Determined if taxpayer can pay taxes    Input correct information into tax
  complete response.                       in installments.                        return preparation software.
  Input visit to specialized system for    Input installment agreement into        Returned original documents to
  future reference.                        computer systems.                       taxpayer.
  Prepared/input taxpayer request for      Discussed installment agreement         Explained IRS time periods to
  specialized documents.                   rules with taxpayer.                    taxpayer (when to expect refunds,
                                                                                   etc.).
  Listened effectively to taxpayer’s       Followed internal processing            Explained refund offset if taxpayer
  issue to provide correct response.       guidelines for processing installment   owes tax on another year or has other
                                           agreements.                             tax-related obligations.
  Used appropriate talk time               Secured sources for future              Explained completed tax return to
  (e.g., limited extraneous dialogue).     enforcement (e.g., levies).             taxpayer.
  Used clear professional language         Determined the cause for the taxes      Provided a copy of return to
  (do not use jargon familiar to IRS       owed and discussed cures with           taxpayer.
  employees).                              taxpayer.
Source: IRS Field Assistance Office.




                                                                                                              Page 29
                                  Improved Internal Controls and Contact Recording
                               Are Needed to Ensure the Accuracy and Reliability of the
                              Taxpayer Assistance Centers Quality Measurement System


       The attributes are divided into five quality measures that are used to report Customer Accuracy,
       Professionalism, and Timeliness measures to the IRS Commissioner as part of the IRS’ balanced
       measures.2 The Customer Accuracy quality measure is also reported externally to IRS
       stakeholders (e.g., Congress and the Government Accountability Office) and as part of the
       reporting requirement of the Government Performance and Results Act.3 The Regulatory
       Accuracy and Procedural Accuracy measures are reported internally to IRS management to
       identify trends and training opportunities. Chart 2 provides details.
                     Chart 2: Business Results Reports to External Stakeholders4

                      Business
                      Business Results:
                               Results:            Business
                                                   Business Results:
                                                            Results:                 Customer
                                                                                     Customer                           Employee
                                                                                                                        Employee
                           Quality
                           Quality                     Quantity
                                                        Quantity                    Satisfaction
                                                                                    Satisfaction                       Satisfaction
                                                                                                                       Satisfaction


                                                                                                            Definitions:
                                                                                                            Definitions:
                             Timeliness
                             Timeliness                                                
                                                                                        Timeliness
                                                                                          Timeliness –– Resolving
                                                                                                        Resolving an
                                                                                                                   an issue
                                                                                                                       issue inin the
                                                                                                                                   the most
                                                                                                                                       most
SITE                                                                                     efficient manner through the   use of   proper
                                                                                          efficient manner through the use of proper
                                                                                         workload
                                                                                          workload management
                                                                                                     management and
                                                                                                                 and time
                                                                                                                       time utilization
                                                                                                                            utilization
                          Professionalism
                          Professionalism                                                techniques
                                                                                          techniques

                              Customer                                      Externally 
                                                                                        Professionalism
                                                                                          Professionalism -- Promoting
                                                                                                             Promoting aa positive
                                                                                                                           positive image
                                                                                                                                     image ofof
                              Customer                                      Reported     the Service by using effective communication
                                                                                          the Service by using effective communication
                              Accuracy              Customer
                                                    Customer Accuracy
                                                             Accuracy
                              Accuracy                                      Customer     techniques
                                                                                          techniques
                                                                             Measure
                                                                                       
                                                                                        Customer   Accuracy –– Giving
                                                                                         Customer Accuracy        Giving the
                                                                                                                          the correct
                                                                                                                              correct
                    Externally Reported Quality    Regulatory
                                                   Regulatory Accuracy
                                                              Accuracy      Internally   answer with the correct resolution
                                                                                         answer with the correct resolution
                             Measures                                      Reported
                                                                           Process  Regulatory    Accuracy –– Adhering
                                                                                       Regulatory Accuracy       Adhering toto statutory/
                                                                                                                               statutory/
                                                   Procedural
                                                   Procedural Accuracy
                                                              Accuracy     Measures   regulatory
                                                                                       regulatory process
                                                                                                  process requirements
                                                                                                           requirements
                                                                                       
                                                                                        Procedural
                                                                                          Procedural Accuracy
                                                                                                        Accuracy –– Adhering
                                                                                                                       Adhering to
                                                                                                                                 to non
                                                                                                                                    non
                                                                                         statutory/
                                                                                          statutory/ regulatory
                                                                                                      regulatory internal
                                                                                                                  internal process
                                                                                                                           process
                                                                                         requirements
                                                                                          requirements
       Source: Excerpt from the IRS presentation “TIGTA5 Briefing of Embedded Quality,” dated July 22, 2002.




       2
         Three measures (employee satisfaction, customer satisfaction, and business results) the IRS uses to measure
       organizational and employee performance.
       3
         Pub. L. No. 103-62, 107 Stat. 285 (codified as amended in scattered sections of 5 U.S.C., 31 U.S.C., and
       39 U.S.C.).
       4
         The reference to “the Service” in the chart refers to the IRS.
       5
         Treasury Inspector General for Tax Administration.
                                                                                                                           Page 30
         Improved Internal Controls and Contact Recording
      Are Needed to Ensure the Accuracy and Reliability of the
     Taxpayer Assistance Centers Quality Measurement System



                                                   Appendix VII

Management’s Response to the Draft Report




                                                           Page 31
    Improved Internal Controls and Contact Recording
 Are Needed to Ensure the Accuracy and Reliability of the
Taxpayer Assistance Centers Quality Measurement System




                                                      Page 32
    Improved Internal Controls and Contact Recording
 Are Needed to Ensure the Accuracy and Reliability of the
Taxpayer Assistance Centers Quality Measurement System




                                                      Page 33
    Improved Internal Controls and Contact Recording
 Are Needed to Ensure the Accuracy and Reliability of the
Taxpayer Assistance Centers Quality Measurement System




                                                      Page 34
    Improved Internal Controls and Contact Recording
 Are Needed to Ensure the Accuracy and Reliability of the
Taxpayer Assistance Centers Quality Measurement System




                                                      Page 35
